                                                                O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                           90 - 7 T H S TREET, S UITE 3-650
                                                                            S AN F RANCISCO , CA 94103
July 26, 2012

TO:             Francis S. Collins, M.D., Ph.D.
                Director
                National Institutes of Health


FROM:           /Lori A. Ahlstrand/
                Regional Inspector General for Audit Services


SUBJECT:        Syntrix Biosystems, Inc.’s Costs Claimed Under the Recovery Act for National
                Institutes of Health Grant 3R44CA094612-05S2 Were Unallowable
                (A-09-11-01011)


The attached final report provides the results of our review of Syntrix Biosystems, Inc.’s costs
claimed under the American Recovery and Reinvestment Act of 2009 for National Institutes of
Health (NIH) grant 3R44CA094612-05S2. This review was requested by NIH.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Janet Tursich, Audit Manager at (206) 615-2063 or through email at
Janet.Tursich@oig.hhs.gov. We look forward to receiving your final management decision
within 6 months. Please refer to report number A-09-11-01011 in all correspondence.


Attachment


cc:

Meredith Stein
Director, Division of Risk Management & Audit Liaison,
 Office of Management Assessment
National Institutes of Health
                                                             O FFICE OF A UDIT S ERVICES , R EGION IX
                                                                        90 - 7 T H S TREET, S UITE 3-650
                                                                         S AN F RANCISCO , CA 94103



July 26, 2012

Report Number: A-09-11-01011

John A. Zebala, M.D., Ph.D.
CEO, President, Principal Investigator
Syntrix Biosystems, Inc.
215 Clay Street, NW
Suite B-5
Auburn, WA 98001

Dear Dr. Zebala:

Enclosed, for your information, is a copy of the U.S. Department of Health and Human Services
(HHS), Office of Inspector General (OIG), final report entitled Syntrix Biosystems, Inc.’s Costs
Claimed Under the Recovery Act for National Institutes of Health Grant 3R44CA094612-05S2
Were Unallowable. This report was issued to the National Institutes of Health.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official noted on the following page. Please refer to report number A-09-11-01011 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – John A. Zebala, M.D., Ph.D.


HHS Action Official:

Ms. Meredith Stein
OIG/GAO Liaison
Director, Division of Risk Management & Audit Liaison
Office of Management Assessment
National Institutes of Health
6011 Executive Boulevard, Suite 601
Rockville, MD 20892-7669
(301) 402-8482 Voice
(301) 402-0169 Fax
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




  SYNTRIX BIOSYSTEMS, INC.'S
  COSTS CLAIMED UNDER THE
 RECOVERY ACT FOR NATIONAL
 INSTITUTES OF HEALTH GRANT
     3R44CA094612-05S2
     WERE UNALLOWABLE




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-09-11-01011
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, included measures to modernize the Nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
and protect those in greatest need. Office of Management and Budget memorandum M-09-15,
dated April 3, 2009, states that Federal agencies must take steps, beyond standard practice, to
initiate additional oversight mechanisms to mitigate the unique implementation risks of the
Recovery Act.

The Recovery Act provided approximately $10.4 billion to the National Institutes of Health
(NIH), including $8.2 billion intended to stimulate the economy through the support and
advancement of scientific research. NIH used these funds to award grants and cooperative
agreements to research entities, including nonprofit and for-profit organizations, universities,
hospitals, governments and their agencies, and occasionally individuals. The NIH Grants Policy
Statement (December 2003), which was effective for all grants with budget periods beginning
December 1, 2003, through September 30, 2010, details the general policy that all grantees must
follow. The Grants Policy Statement requires for-profit organizations to maintain a time-and-
effort reporting system that reflects daily after-the-fact reporting of hours expended on individual
projects.

Under the Recovery Act, NIH awarded Syntrix Biosystems, Inc. (Syntrix), a commercial
organization located in Auburn, Washington, a supplemental grant of $200,000 for its Snap-To-It
Probes Project (the project). The award was for the period September 30, 2009, through
September 29, 2010.

OBJECTIVE

Our objective was to determine whether the costs that Syntrix claimed against the Recovery Act
grant were allowable under the terms of the grant and in accordance with applicable Federal
requirements.

SUMMARY OF FINDINGS

Of the $200,000 of costs that Syntrix claimed against the Recovery Act grant, the entire amount
was unallowable:

   •   For the $126,783 of total direct costs claimed, we questioned as unallowable the entire
       amount because Syntrix’s timesheets did not reflect employees’ actual hours worked on
       the project.

   •   For the $73,217 of total indirect costs claimed, we questioned as unallowable the entire
       amount based on our disallowance of total direct costs.




                                                 i
Syntrix did not adhere to its policies for recording and distributing employees’ time and
attendance to ensure that the costs claimed were allowable under the terms of the grant and in
accordance with applicable Federal requirements.

RECOMMENDATIONS

We recommend that NIH recover the $200,000 that Syntrix claimed for unallowable costs. In
addition, to ensure that Syntrix adheres to its policies for recording and distributing employees’
time and attendance to properly account for costs claimed under Federal grants, we recommend
that NIH establish additional monitoring and reporting requirements regarding Syntrix
employees’ time and attendance.

SYNTRIX BIOSYSTEMS, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Syntrix took a strong position of nonconcurrence with
our findings and recommendations. Syntrix disagreed with our application of Federal
requirements and our assessment of its time-and-effort reporting system. Syntrix stated that
recording the distribution of time that employees worked on the project as a percentage of the
total recorded hours was a fully acceptable means of meeting NIH standards. As further
evidence that it followed NIH standards, Syntrix attached to its comments signed certifications of
employees’ hours spent on the grant, dated December 2011. We have included Syntrix’s
comments as Appendix A. However, we have omitted the signed certifications because they
contained personally identifiable information.

The Grants Policy Statement makes clear that the distribution of time worked must reflect
employees’ actual hours worked on specific projects rather than estimated percentages, and the
information must be certified at least every pay period. Because the signed certifications that
Syntrix provided us were dated more than a year after the end of our audit period, they do not
constitute valid evidence that timesheets were verified and certified. After reviewing Syntrix’s
comments, we maintain that our findings and recommendations are valid.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with our findings and our first
recommendation. Regarding our second recommendation, NIH suggested a revision to the
wording. NIH offered technical comments on the description of our methodology for calculating
fringe benefits and indirect costs and our finding on unallowable total direct costs. We revised
our report based on NIH’s suggestions and have included NIH’s comments in their entirety as
Appendix B.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              American Recovery and Reinvestment Act .......................................................1
              National Institutes of Health Funding Under the Recovery Act ........................1
              Federal Requirements for Grantees ...................................................................1
              Syntrix Biosystems, Inc. ....................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATIONS ..........................................................................3

          FEDERAL REQUIREMENTS ......................................................................................3

          UNALLOWABLE TOTAL DIRECT COSTS ..............................................................3

          UNALLOWABLE TOTAL INDIRECT COSTS ..........................................................4

          RECOMMENDATIONS ...............................................................................................4

          SYNTRIX BIOSYSTEMS, INC., COMMENTS ..........................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................5

          NATIONAL INSTITUTES OF HEALTH COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................5

APPENDIXES

          A: SYNTRIX BIOSYSTEMS, INC., COMMENTS

          B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, included measures to modernize the Nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
and protect those in greatest need. Office of Management and Budget memorandum M-09-15,
dated April 3, 2009, states that Federal agencies must take steps, beyond standard practice, to
initiate additional oversight mechanisms to mitigate the unique implementation risks of the
Recovery Act.

In accordance with the Recovery Act, the Office of Inspector General (OIG) provides oversight
of covered funds within the U.S. Department of Health and Human Services to prevent fraud,
waste, and abuse. In light of this oversight role, OIG conducts audits to determine whether
Department grantees have claimed costs in accordance with applicable Federal regulations and
cost principles.

National Institutes of Health Funding Under the Recovery Act

The Recovery Act provided approximately $10.4 billion to the National Institutes of Health
(NIH), including $8.2 billion intended to stimulate the economy through the support and
advancement of scientific research. NIH used these funds to award grants and cooperative
agreements to research entities, including nonprofit and for-profit organizations, universities,
hospitals, governments and their agencies, and occasionally individuals.

Federal Requirements for Grantees

NIH grantees are required to follow the cost considerations and principles in Federal regulations
and the NIH Grants Policy Statement. Pursuant to 45 CFR § 74.27, the allowability of costs
incurred by commercial organizations is determined in accordance with the provisions of the
Federal Acquisition Regulation (FAR) at 48 CFR part 31. The NIH Grants Policy Statement
(December 2003), which was effective for all grants with budget periods beginning
December 1, 2003, through September 30, 2010, details the general policy that all grantees must
follow.

Syntrix Biosystems, Inc.

Syntrix Biosystems, Inc. (Syntrix), is a private, Washington State-based biotechnology company
dedicated to developing and commercializing therapeutic compounds and research platforms for
the pharmaceutical, biotechnology, and research markets. Syntrix develops and commercializes
research platforms and technologies for the study of DNA, RNA, proteins, and whole tissues.
From Federal fiscal years 2001 through 2011, Syntrix received over $15 million from NIH.




                                                 1
Under the Recovery Act, NIH awarded Syntrix $200,000 for the period September 30, 2009,
through September 29, 2010, consisting of $126,783 for direct costs and $73,217 for indirect
costs. The direct costs consisted of salaries and wages of $106,086 and fringe benefits of
$20,697. The indirect costs were based on a percentage of total direct costs; Syntrix negotiated
with NIH the indirect cost rate. This grant was a supplement to a previous grant for Syntrix’s
Snap-To-It Probes project (the project).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the costs that Syntrix claimed against the Recovery Act
grant were allowable under the terms of the grant and in accordance with applicable Federal
requirements.

Scope

We reviewed the total $200,000 in costs that Syntrix claimed for the period September 30, 2009,
through September 29, 2010, for NIH grant 3R44CA094612-05S2. All of the costs claimed
were direct and indirect costs in support of the project.

We limited our assessment of Syntrix’s internal controls to those that related to the objective of
our audit. We performed fieldwork at Syntrix’s office in Auburn, Washington, from July to
September 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed the terms of the grant award;

   •    reviewed Syntrix’s pay rates and transactions related to salaries and wages;

   •    verified Syntrix’s calculation of fringe benefits and reviewed its supporting
        documentation for the calculation;

   •    verified that Syntrix applied the correct indirect cost rates and properly calculated indirect
        costs;

   •    interviewed Syntrix officials to obtain an understanding of Syntrix’s internal controls and
        accounting system; and

   •    reviewed Syntrix’s independent audit reports for the calendar years ended
        December 2007, 2008, and 2009.


                                                  2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Of the $200,000 of costs that Syntrix claimed against the Recovery Act grant, the entire amount
was unallowable. Syntrix did not adhere to its policies for recording and distributing employees’
time and attendance to ensure that the costs claimed were allowable under the terms of the grant
and in accordance with applicable Federal requirements.

FEDERAL REQUIREMENTS

Pursuant to 45 CFR § 74.27, the allowability of costs incurred by commercial organizations is
determined in accordance with the provisions of the FAR at 48 CFR part 31. The FAR, section
31.201-2(a), states that a cost is allowable if it is reasonable and allocable. Section 31.201-3(a)
states that a cost is reasonable if, in its nature and amount, it does not exceed that which would
be incurred by a prudent person in the conduct of competitive business. Section 31.201-4
states that a cost is allocable if it is assignable or chargeable to one or more cost objectives on the
basis of relative benefits received or other equitable relationship.

The NIH Grants Policy Statement, Part II, subpart A, “Selected Items of Cost for Payroll
Distribution,” requires for-profit organizations to maintain a time-and-effort reporting system
that reflects daily after-the-fact reporting of hours expended on individual projects unless the
grants management officer approves an alternate system. Employees are personally responsible
for recording all hours worked and all hours absent, recording the correct distribution of hours by
project, and signing the timesheet or certifying the labor distribution in an automated system at
the end of each pay period (NIH, Office of Acquisition Management and Policy, “Time and
Effort Reporting for Commercial Organizations” (OAMP policy)). The OAMP policy requires
that a supervisor cosign the timesheet or electronically certify individual time-and-effort
reporting at the end of each pay period.

UNALLOWABLE TOTAL DIRECT COSTS

Of the $126,783 that Syntrix claimed for total direct costs, the entire amount was unallowable.
Syntrix’s timesheets did not reflect employees’ actual hours worked on the project funded by the
grant. Syntrix’s total direct costs consisted of salaries, wages, and fringe benefits. Syntrix
allocated these costs based on an estimated percentage of effort for each employee working on
the grant instead of charging the actual number of hours worked on the grant. In addition,
employee timesheets were not verified by the employees or certified by a supervisor. Although
Syntrix’s policies addressed the Grants Policy Statement’s requirements, Syntrix did not follow
those policies.




                                                  3
UNALLOWABLE TOTAL INDIRECT COSTS

Of the $73,217 that Syntrix claimed for total indirect costs, the entire amount was unallowable.
These costs were based on a percentage of total direct costs, which we determined to be
unallowable (see the previous section).

RECOMMENDATIONS

We recommend that NIH recover the $200,000 that Syntrix claimed for unallowable costs. In
addition, to ensure that Syntrix adheres to its policies for recording and distributing employees’
time and attendance to properly account for costs claimed under Federal grants, we recommend
that NIH establish additional monitoring and reporting requirements regarding Syntrix
employees’ time and attendance.

SYNTRIX BIOSYSTEMS, INC., COMMENTS

In written comments on our draft report, Syntrix took a “strong position of nonconcurrence” with
our findings and recommendations. Syntrix disagreed with our application of Federal
requirements and our assessment of its time-and-effort reporting system.

   •   Syntrix stated that recording the distribution of time that employees worked on the
       project as a percentage of the total recorded hours was a fully acceptable means of
       meeting NIH standards. Syntrix also stated that these standards do not specify that the
       distribution of employee time must be recorded in any particular units (e.g., hours).

   •   Syntrix stated that its time-and-effort reporting system conformed to NIH’s standards.
       Specifically, Syntrix stated that its system included (1) after-the-fact recording of all
       hours on a daily basis, (2) recording the correct distribution of hours by project, and
       (3) signing or electronically certifying the labor distribution. In addition, Syntrix stated
       that an authorized company official electronically certified time-and-effort reporting at
       the end of each pay period. As further evidence that it followed NIH standards, Syntrix
       attached to its comments signed certifications of employees’ hours spent on the grant,
       dated December 2011.

   •   Syntrix stated that our draft report did not refer to all aspects of Federal requirements
       governing allocability for commercial organizations, including FAR cost principles and
       the Grants Policy Statement. Specifically, Syntrix objected that our draft report had not
       addressed the NIH policy on allocating costs of closely related work.

   •   Syntrix objected to our statement in the draft report that timesheets could have been
       manipulated by anyone with access and requested that it be rescinded.

We have included Syntrix’s comments as Appendix A. However, we have omitted the signed
certifications that Syntrix provided because they contained personally identifiable information.




                                                 4
OFFICE OF INSPECTOR GENERAL RESPONSE

The Grants Policy Statement makes clear that the distribution of time worked must reflect
employees’ actual hours worked on specific projects rather than estimated percentages, and the
information must be certified at least every pay period. The OAMP policy specifies that “the
employee is personally responsible for … [r]ecording the correct distribution of hours by project
or indirect category.” Despite Syntrix’s written statements to the contrary, Syntrix employees
recorded only the number of hours worked each day, not which projects they worked on. The
distribution of hours worked was based on supervisor estimates made every month or two. In
addition, Syntrix employees did not verify timesheets, including their distribution of hours by
project, and the supervisor did not certify them.

We reviewed all the timesheets during the audit period; there were no electronic signatures or
markings to indicate any employee verified or any supervisor certified time and effort for each
pay period. Because the signed certifications that Syntrix provided us were dated more than a
year after the end of our audit period, they do not constitute valid evidence that timesheets were
verified and certified.

Syntrix cites the Grants Policy Statement as support for its argument that grantees may allocate
costs on any reasonable basis if the costs benefit two or more projects in proportions that cannot
be determined, such as with costs for closely related work. We agree that grantees can allocate
such costs to one project in such situations as long as the basis for the allocation is reasonable
and the costs are otherwise allowable. In this case, however, Syntrix employees did not
distribute their time between projects, and we were not able to evaluate the basis for the
allocation.

After reviewing Syntrix’s comments, we removed the statement that timesheets could have been
manipulated by anyone with access, but we maintain that our findings and recommendations are
valid.

NATIONAL INSTITUTES OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NIH concurred with our findings and our first
recommendation. Regarding our second recommendation, NIH suggested a revision to the
wording. NIH offered technical comments on the description of our methodology for calculating
fringe benefits and indirect costs and our finding on unallowable total direct costs. We revised
our report based on NIH’s suggestions and have included NIH’s comments in their entirety as
Appendix B.




                                                 5
APPENDIXES
                                                                                                     Page 1 of8



     APPENDIX A: SYNTRIX BIOSYSTEMS, INC., COMMENTS



Syntrix 1Biosystems
 215 CLAY ST. NW, SUITE B5   I AUBURN, WA   98001   I T 253 833.8009 I F 253 833.8127


December 14, 2011

Lori A. Ahlstrand
Office of Inspector General
Office of Audit Services, Region IX
90 - 7th Street
Suite 3-650
San Francisco, CA 94103

RE: Response to recommendations in orG draft report A-09-11-0 1011 (enclosed) dated
November 17, 2011 (due within 30 days or by Friday, December 15). Electronic PDF file
without signature provided separately by email to JanetTursich, AuditManager, at
Janet.Tursich@oig.hhs.gov (206-615-2063).

Dear Ms. Ahlstrand,

We are in receipt your draft report dated November 17, 2011 . We appreciate the due diligence
and thoroughness of the field auditors in reviewing the processes followed at our Company. We
were certainly surprised to read your recommendation after receiving praises from the field
auditors on our compliance. We believe we are in compliance with all regulations and have
provided the following detail in support of our compliance with applicable requirements and
nonconcurrence with the draft report.

Under the Recovery Act, NIHINCI awarded Syntrix Biosystems, Inc. (Syntrix) a supplemental
salary-only grant of $200,000 for its Snap-To-lt research program originally funded as R44 CA
094612 (SNAP) for tbe I year period September 30,2009, through September 29,2010. The
SNAP program has generated numerous accomplishments and resources for the scientific
community, including:

I. 	 Peer-reviewed publications (Morgan et. aI., Nucleic Acids Res. 2008, 36, 3522-3530, and Ye
     et. aI., Biorg. Chern. 2009, 37, 133-142)
2. 	Patents (U.S. Patent Appl. 11 /834,533, Lyon, R. and Zebala, J.A. Conformationally
     constrained analytical probes. 53 pages. Published October 30, 2008).
3. Commercial products (2,2' -dipicolylarnine CEPA, available from Glen Research [nc., see
     www.glenres.com. search on 'syntrix')
4. 	 Other manuscripts and patents in preparation related to data and discoveries generated over
     the previous 2 years.

As stated in the draft report, the Office of Audit Services (OAS) examines the performance of
HHS programs andlor its grantees and contractors in carrying out their respective responsibilities
and are intended to provide (i) independent assessment of HHS programs and operations, and (ii)
help reduce waste, abuse, and mismanagement and promote economy and efficiency throughout
HHS.
                                                                                                                            Page 2 0[8




 As further elaborated, OMB memorandum M-09-IS dated April 3, 2009 states that Federal
 agencies must take       beyond standard practice, to initiate additional oversight mechanisms
 to mitigate the unique                                                            acknowledge
 that three OAS auditors                                                            were on site at
 Syntrix where they                                                                 . of the above
 $200,000 salary-only supplement.

 The stated objective in the OAS draft report was to determine whether the Recovery Act costs
 that Syntrix claimed for reimbursement were allowable, allocable, and reasonable under the
 terms of the grant and in accordance with applicable Federal Requirements.

 The applicable Federal Requirements are 48 CFR Subpart 31.2, Federal Acquisition Regulation
 (FAR) cost principles applicable to commercial organizations and NIH-specific policy and
 guidance, including the NIH Grants Policy Statement, dated December I, 2003 (GPS)

The OAS draft report concluded 'Syntrix did not bave adequate internal controls to ensure that
the costs claimed for reimbursement were allowable, allocable, and reasonable under the tenns
ofthe grant and in accordance with applicable Federal requirements' using as its sole support the
following three (3) alleged findings:'

     1. "Syntrix's total direct costs consisted of salaries, wages, and fringe benefits. Syntrix
     allocated these costs based on an estimated percentage of effort for each employee working
     on the grant, not the actual number of bours worked."

     2. "In addition, employee timesheets were not verified by the employees or certified by a
     supervisor,"

     3. "and the timesheets could have been manipulated by anyone with access."

Syntrix takes its responsibility over the proper stewardship of Federal funds very seriously and
has expended siguificant resources to ensure proper stewardship, full compliance with all Federal
Requirements, and continued NIH contidence, including hiring additional accounting staff with
NllI grant experience, the implementation of adequate controls and systems (e.g. no one person
has complete control over all aspects ofa financial transaction). In FY20 I 0, Syntrix received an
unqualified report from its annual government audit as a result of these measures.

Syntrix thus takes a strong position ofnonconcurrence with botb the alleged findings and the
recommendations in the OAS draft report. We elaborate the basis of our nonconcurrence in the
remainder of this document, demonstrating that the findings in the OAS draft report are based on
an improper application of the Federal Requirements and a mischaracterization of the material
facts. With this further clarification, Syntrix requests that OAS rescind its findings and amend
its draft report accordingly.

I It is of note that 010 field auditors                                            dicated to the Syntrix Controller that
Syntrix was in such exceptional compliance with the Federal Requirements that they intended to waive an exit
interview. It appears the findings of the draft report are the result of an improper post hoc ergo propter hoc analysis.

Office of Inspector General Note: The deleted text has been redacted because it is personall y
identifiable infonnation.
                                                                                                                Page 3 of8




    A. Tbe Federal Requirements

        A.l Payroll Distribution for Supporting Time-and-Effort

    The applicability of a particular set of cost principles depends on the type of organization. As
    noted in the GPS (p. 97), the FAR cost principles for commercial organizations are unique from
    the cost principles for all other types of organizations in that they are silent with respect to
    requirements for a specific payroll distribution system:

            " ... StandardsJor payroll distribution systems are contained in the applicable cost
            principles (other than those Jar Jar-profit organizations) ..."

    The GPS (p. 98) has elaborated the FAR cost principles to commercial organizations regarding 

    an acceptable payroll distribution system further as Nlli policy: 


            " .... NIH requires Jor-profit organizations to conJorm with industry standards to support
            salary and wage charges 10 NIH grants. ThereJore. unless an alternate system is
            approved by the GMO. the grantee must maintain a time-and-effort reporting systemJor
            both professional and other-than-proJessional staffref/ecting daily afier-the:fact
            reporting ojhours expended on individual projects or indirect activities. The system
            must record both hours worked and hours absent. This inJormation must be certified by
            an AOO [Authorized Organizational Official} no less frequently than every pay period"

The NIH promulgates one type of acceptable payroll reporting system for commercial
organizations at the following online site: http://oarnp.od.nib.gov/dfaslforprofittime_eifort.asp.

The GMO (i.e. the NCI) for the supplemental salary-only grant awarded under the Recovery Act
promulgates a substantially similar         type
                                        of acceptable payroll reporting system for commercial
organizations in its letter authored by           to commercial organizations (Appendix 1).

Syntrix's payroll system employs a server-based electronic system based on an Excel timesheet
in combination with manual data entry into QuickBooks that fully conforms to the (NIH and/or
GMO) standards listed in the OAMP link above for an acceptable payroll system. Specifically:

       "   After the fact recording of hours (or fractions thereot) on a daily basis. 2
       "   Recording all hours worked and all hours absent, whether or not they are paid. 3
       "   Recording the correct distribution of hours by project or indirect category. The nature of
           the work performed determines the proper distribution of time, not the availability of
           funding, type of contract/grant or other factors (see section A.3 Determining
           Allocability below). To ensure accuracy, a listing ofprojectslindirect categories and
           their descriptions are provided.
       "   At end of each pay period, employee certifies the labor distribution in the system.


2   OIG feedback to the Syntrix Controller indicates no disagreement that employees are perfonning this step.
J   OIG feedback to the Syntrix Controller indicates no disagreement that employees are performing this step.


Office of Inspector General Note: The deleted text has been redacted because it is personall y
identifiable information.
                                                                                                                         Page 4 of8




      ./ 	An authorized company official [AOO] (e.g., controller for supervisors, supervisors for
          junior staff for whom has supervisory oversight) electronically certifies individual time
          and effort reporting at the end of each pay period.

 Note that 'correct distribution' by category as the phrase is used above in the written NIHIGMO
 standards in no way specifies or restricts that the distribution must be recorded in any particular
 units (e.g. hours) as suggested by the OAS draft report finding (#1 above) "Syntrix allocated
 these costs based on an estimated percentage ofeffort for each employee working on the grant,
 notthe actual number ofhours worked." Thus, recording the correct distribution as a percentage
 ofthe total recorded hours is a fully acceptable means ofmeeling the standard (see also section
 A.3 Determining Allocability below). This finding in the OAS draft report is therefore 

 improper, being without basis in written policy or law. We request the finding be rescinded. 


Note that the Syntrix' s payroll system provides for, and contains, electronic verification by the
employees and electronic certification by a supervisor in contradistinction to the OAS draft
report finding (#2 above) "employee timesheets were not verified by the employees or certified
by a supervisor." Employee excel time sheets were electronically certified by employee and
supervisor, and are thus compliant with the NIHIGMO standards. In particular, a cell in the
excel spreadsheet was 'clicked' or 'toggled' to indicate certification by the relevant party.
Electronic certification is commonplace and accepted in our modern society. For example, the
electronic signature is accepted in both FDA and NIH submissions in lieu of a 'wet' signature.
Moreover, electronic certification as described in the Syntrix payroll system is specifically
permitted by the NIHIGMO standards. Finding #2 in the OAS draft report is therefore improper,
being unsupported by law or policy, and contradicted by fact. 4 We request the finding be
rescinded.

Note that ' un-manipulatibility' is not an NIHlGMO standard for an acceptable payroll reporting
system as suggested by OAS draft re~ort finding (#3 above) "timesheets could have been
manipulated by anyone with access." This finding in the OAS draft report is thus improper,
being an improvisation without basis in policy or law. We request the finding be rescinded.

In addition to maintaining an acceptable Payroll System per NIH policies for commercial
organizations, the FAR cost principles (48 CFR Subpart 31.201-2) applied to payroll also turn
on, (i) reasonableness and (ii) allocability, wherein each is determined as follows:


4 We provide 'wet' signatures for 8119 employees and their supervisors redundant to (i.e. in addition to) the previous
electronic certifications in Appendix 2 that give clear and incontrovertible evidence the OAS draft report finding #2
 is unsupported by fact.
5 Any payroll system can be defeated and manipulated by a determined individuaJ(s), including a manual system
with 'wet' signatures. Effort reporting is fundamentally an honor system, whether by accountants, attorneys or
scientists. On the other band, reasonable accounting controls should be in place that are appropriate for an
organization. Although the Syntrix payroll system is fully compliant with NLHlGMO standards and has appropriate
controls for an organization of - I0 employees working in a single converted warehouse laboratory/office where
everyone's whereabouts is known to everyone else at all times, it would not be appropriate for a large University
having thousands of employees distributed across a wide geographic region. These facts notwithstanding, in the
interest of being responsive to recommendations (i.e. not 'findings') by DIG for improved controls in our existing
compliant electronic payroll system, we commit to add 'wet' signatures to the 'per pay period' certifications, and we
have modified our Tim e and Effort Reporting Policy accordingly.
                                                                                                      Page 5 0[8




A.2 Determining Reasonableness (48 CFR Subpart 31.201-3)

        " ... A cost is reasonable if in its nature and amount, it does not exceed that which would
        be incurred by a prudent person in the conduct ojcompetitive business."

A.3 Determining ADocability (48 CFR Subpart 31.201-4 and tbe GPS)

       "A cost is allocable if it is assignable or chargeable to one or more cost objectives on the
       basis ojrelative benefits received or other equitable relationship. Subject to the
       Joregoing, a cost is allocable to a Government contract if it ­

               (a) Is incurred specifically Jor the contract;

               (b) Benefits both the contract and other work, and can be distributed to them in
               reasonable proportion to the benefits received; or

               (c) Is necessary to the overall operation ojthe business, although a direct
               relationship to any particular cost objective cannot be shown. "

It appears tbe OAS draft report was made witbout complete reference to all aspects of tbe
Federal Requirements governing allocability for commercial organizations; in particular, tbose
embodied in tbe GPS (p. 84) tbat apply to Syntrix and tbat elaborate tbe FAR cost principles to
commercial organizations as NIH policy regarding allocability of salary costs for closely related
work as follows:

       "Allocation oJCosts and Closely Related Work

        When salaries or other activities are supported by two or more sources, issues arise as to
       how the direct costs should be allocated among the sources ojsupport. In general, a cost
       that benefits two or more projects or activities in proportions that can be determined
       without undue effort or cost should be allocated to the projects on the basis ojthe
       proportional benefit. A cost that benefits two or more projects or activities in
       proportions that cannot be determined because ojthe interrelationship ojthe work
       involved may be allocated or transferred to the benefiting proiects on any reasonable
       basis as long as the costs charged are allowable, allocable, and reasonable under the
       applicable cost principles and the grantee 's financial management system includes
       adequate internal controls (for example, no one person has complete control over all
       aspects oja financial transaction). As a result. a grantee may allocate costs normally
       assignable to multiple projects to one ofthose projects."


Syntrix projects all involve closely related work. The GPS appropriately recognizes and
provides provisions for, what all scientists already know; perfonning science is not tbe same as
working at an automotive repair shop where work on automobiles is performed in serial fashion
                                                                                                                         Page 6 of8




     and thus hours worked on each automobile can readily be determined and allocated 6 The phrase
     any reasonable basis in the GPS is implemented at Syntrix through after-the-fact assessments by
     each employee scientist in full conformance with the principles of allowability, allocability and
     reasonableness as specified in the Allocation oJCosts and Closely Related Work section of the
     GPS.' The any reasonable basis methodology employed by Syntrix for allocating payroll costs
     for closely related work is inJact a right oJSyntrix under the Federal Requirements, not a
     violation of them.'

    The OAS draft report finding #1 above is therefore an incorrect determination of the material
    facts associated with the any reasonable basis methodology of Syntrix and an improper (Le.
    incomplete) application of the Federal Requirements. We request the finding be rescinded.

    A.4 External Indicia

    Employee effort on a project-by-project basis is further validated by external indicia that include
    hard-bound and doubl y-signed dated laboratory notebooks for the SNAP research program
    maintained according to an evidentiary standard for determining invention priority in patent
    litigation disputes. Additionally, there are gigabytes of time stamped data on laboratory
    instruments for the SNAP project that corroborate both the bound laboratory notebooks and data
    in the conforming Syntrix payroll reporting system. The external indicia offactual evidence
    render the OAS position and recommendations simply untenable.

    A.S Conclusion

    The Syntrix SNAP Recovery Act supplement precisely and successfully achieved the objectives
    of the Recovery Act at NIH, contributing to the employment of9 scientists over the one year
    period of support, of which 4 were newly hired scientists specifically for, and because of, the
    SNAP Recovery Act supplement (Table 1 in Appendix 2). Signed certifications by each of the
    above 9 scientists and their supervisors are provided herein as incontrovertible evidence fully
    refuting the OAS position and recommendations in its draft report (Appendix 2).


IiFor a typical senior chemist at Syntrix responsible for multiple projects who for example, begins their day at 8 am
by starting 3 simultaneous synthetic reactions in the chemical fume hood, each for 3 different projects, each
involving from 3 to 6 different and unique synthetic steps that require their own optimizations, each having their
own timing over the course ofdays, who then turns to also reading a paper for one project, writing an annual report
for another, managing 3 junior subordinate scientists each working on different projects, taking a telecon with a
collaborating university scientist, and all the while simultaneously thinking about the various hypotheses and
roadblocks on each of the projects, the notion that effort can be allocated across projects based on 'hours' worked as
if the scientist were an automobile repair technician working in serial fashion on cars is nonsensical and would
reflect a deep lack of understanding of how scientific research is actually conducted at the highest levels.
7 OIG field auditors confirmed this in their interview with                    Furthermore, after-the-fact assessments
by employees are necessarily constrained prospectively by Federal Requirements to fall within a narrow
prespecified range dictated by the 'significant rebudgeting' threshold restriction (GPS, pg. 14), wherein a single
direct cost budget category CaJUlot deviate (increase or decrease) from the categorica l commitment level for the
budget period by more than 25 percent. Employees are informed of this threshold restriction by supervisors andlor
management in order to ensure actual after-the-fact assessments prospectively conform with both the threshold
restriction and the any reasonable      .                           the GPS.
I                                •




Office of Inspector General Note: The deleted text has been redacted because it is personall y
identifiable inform ation .
                                                                                                         Page 7 of8




Syntrix is in strong nonconcurrence with both the alleged findings and the recommendations in
the OAS draft report. Syntrix properly employed and complied with Federal Requirements
governing: (i) standards that determine an acceptable payroll distribution system including after­
the-fact input and electronic certification for each pay-period from each employee and their
supervisor, (ii) cost principles of reasonableness and allocability, and (iii) the allocation of costs
for activities involving closely related work. In all regards, Syntrix met and exceeded standards
aimed at eliminating waste, abuse, and mismanagement.

The OAS draft report is based on an incomplete and improper application of the Federal
Requirements and a mischaracterization of the material facts, in what is potentially an over
exuberant application of the "beyond standard practice" guidance provided in OMB
memorandum M-09- 15 of the Recovery Act. The beyond standard practice guidance is not a
directive to federal agencies to improperly 'claw-back' Recovery Act funds from small
businesses, as such a strategy would be self-defeating to the very objectives of the Recovery Act
itself, particularly with respect to nascent U.S. drug discovery and biotechnology companies like
Syntrix that remain one of the few promising and bright, but fragile sectors of the U.S. economy.

We have detailed the factual basis of our nonconcurrence and provided the relevant citations to
the Federal Requirements that together incontrovertibly support our nonconcurrence. We request
that OAS immediately rescind its findings and amend its draft report accordingly.


                                                               Yours truly,




                                                              t:;:l:'~
                                                               President and CEO
                                                                                                  Page 8 0[ 8




                         Appendix 1 - Letter from _ _


Employee ResponsibiJities
Whether a manual or automaled time and effort repotting system is in place, the
employee is persooaIly responsible fur:

   After the fact recording of hours (or fractions thereof) on a daily basis.

   Recording all hours worked and all hours absent. All hours should be recorded
   whether or not they are paid.

   Recording of hours on the timesheei in ink (manual system only).

  Recording the correct dis1Iibuiion of hours by project or indirect category. The natun:: of 

  the work performed determines the proper distribution oftirne, not the availability of 

  funding, type ofcontract/grant or otber factors. To ensure accuracy, a listing of project 

  numbersl'mdirect categories and their descriptions should be provided in writing to each 

  employee. 


  Any changes/corrections to timesheets should be made by the employee and must show 

  what was initially recorded, i.e., no erasures or "white out" of entries. The employee also 

  must initial any change(s). 


  At the end ofeach pay period, the employee must sign the tirnesheet or electronically

  certifY the labor distribution in an automated system. 




Office of Inspector General NOle: The deleted text has been redacted because it is personally
identifiable information .
                                                                                                           Page 1 of3



    APPENDIX B: NATIONAL INSTITUTES OF HEALTH COMMENTS 

                                                                                                   ,
(~         DEPARTMENT DF HEALTH & HUMAN SERVICES                                 Public Health Service


" ~~'-                                                                           National Institutes o f Hea lth
                                                                                 Bethesda. Marvland 20892




         JVN 1'2 1011




     TO: 	          Lori A. Ahlstrand
                    Regional Inspector General for Audit Services, Region IX

     FROM: 	        Director, NIH

     SUBJECT: 	     General and Technical Comments on thc Officc of Inspector General's
                   Draft Report, Synlr;x Biasystems. Inc. 's COSiS Claimed Under Ihe Recovery
                   Actfor Norlano/lns/flules oj Health Granl 3R44CA094612-05SZ Were
                   Unail(JWable (A-09- 11 -01 0 [ I)


     Attached arc thc National institutes of Health's comments on thc OIO's draft repon,
     Synlrix Biosysle"!S. Inc. 's Costs Claimed Undu {he Recovery Actfor Nationallnslilules of
     Health Granl 3R44CA094612-05S2 (A-09-11-0 101IJ.

     We appreciate: the opportun ity to rev iew and comment on the draft report. Should you
     have questio ns or concerns regarding our comments, please contact Meredith Stein in the
     Office of Management Assessment at 301-402-8482.



                                                  ~. 	 l),"'­
                                    ~('- Franc~;Collins, M.D., Ph.D.
     Attachments:
     NIH General Commcnis on OIG Draft Report A-09-II-O I 0 II
     NIH Technical Comments on OlG Draft Report A-09-1 1-0101 I




"
                                                                                                             Page 2 of3




ENTITLED SYN TRIX BlOSYSTEMS, INC'S COSTS CLAIMED UNDER THE
RECOVERY AC T FDR NA TIONAL INS TITUTES OF HEALTH GRA N T 3R44CA 094612­
05S2 WERE UNALLOWABLE (A·09- II -OIOII)


T he National Institutes of Health (NIH) appreciates the revie w conducted by the DIG alld the opportunity
to provid e clarifications on this drall report. We respectfully submit the (ollowing general comments.
Technica l comments are incl uded as a separate attachment.

OIG Finding I .. The UIG recommends (h al N IH recover Ihe J100,000 thaI Sy lllrjx claimed/ar
u" ollowable casls (page J I).

The NIH concurs with the QIG's find ing and corresponding recommendation regarding Syntrix
B iosystems, lnc.'s COSl~ cla imed under the Recovery Act (or N IH grant number 3R44CA094612-05S2.
We intend lo .recover the costs, as recommended.

DIG Fin ding 2; Tile (JIG recommends tll al /'JIll ensure tl,al Sy ntrjx adheres /0 its policies fo r
recordi"g and distributing employ ees' time (I"d lUtendllllce·1O properly accou"t fo r cos/s claimed u"der
Federal grUnls (page 11).

T.he NIH concurs with the O IG's finding and would lik e to clarify the corresponding recommenda tion
regard in g Syntrix Biosystems, Inc. '.s costs claimed under the Recovery Act for NIH grant numbe r
3R44CA094612-0SS2.                                   .

We suggest that the recommendation be amended to read, "I n order to ensure that Syntri:or. ad here to its
policies for record ing and distributing employees' time and attendance to properly account for costs
claimed under Federal granTS, the DIG recommends that Nm es tabl ish additional monitoring and
reporting requirements regarding Syntri:or. employees' time and attendance."
                                                                                                                 Page 3 of3




TECHNICAL COMMENTS OF THE DEPARTMENT OF HEALTH AND HUMAN
SERVICES (HHS) ON OFFICE OF INs PEcron GENERAL (DIG) ORAFT REI'ORT,
F.NTITLED SYNTRIX BIOSYSTEMS, INC. 'S COSTS CLAIMED UN DER THE
RECOVERY ACT FOR NA T/ONA L INSTITUTES OF HEALTH GRANT 3R.f.fCA09.f6J2­
05S2 WERE UNA LLOWA Bl.E (A-09-IJ-OIOJI)



T he National Lnstit utes of Health (N IH ) appreciates the rev iew cond ucted by the OIG and thc opportuni ty
to provide commenlS on this Draft Report. We resp(:l;tfully submi t the fo ll owing techn ical comments.

I. Technical Comments-

I. 	 Page 2, under " Methodology," the 4'" bullet: We request tha t theO IG clarify what asp(:l;ts of thc
     fr inge benefit and ind irect cost rates ~re verified, i.e., the calc ulation of the ra tes andfor the
     application of the ra tes to the grant award.

2. 	 Page 3, under "Unallowable Total Direct Costs," fourth sen tence; The NIH recommends the
     follow ing revision: "Syntrix allocate~ tbcse costs based on an estimated percentage of effort for eacb
     employee working on the grant, instead of charging the actual number of hours worked on the grant.

J . 	 The N n~ requests that the Action Official for this repo.-t ·be des ignated   as:
    Me redith Stein 

    Di rec tor, Division of Risk Management & Aud it Li aison 

    Office of Management Assessment 

    O ffice of Management 

    Nati onal Institutes of Health (N IH) 


    We request that Ms. Stein be designated as the Action dfficial due to the natu re of the fi nd ings. Full
    resolution of the rC(;Orillnendations may require worki ng across the agency, whicn this Acti on Official
    has the aut hority and flcxib ility to carry out.
